HHS/OIG - Audit, "Review of Medicaid and Medicare Credit Balances at Meriter Hospital, Madison, Wisconsin," (A-05-01-00069)
Department
of Health and Human Services
"Review of Medicaid and Medicare Credit Balances at Meriter Hospital,
Madison, Wisconsin," (A-05-01-00069)
July 30, 2002
Complete Text of Report is available in PDF format
(468 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine if Medicaid and Medicare credit
balances recorded on Meriter Hospitals accounting records represent overpayments
that should have been reported to those programs.  A credit balance occurs
when reimbursement for services exceeds the charges billed according to the
providers accounting records.  We found Medicaid overpayments totaling
$205,679 and Medicare overpayments totaling $766 were not reported in a timely
manner.  Therefore, we recommended Meriter ensure that the federal share
of the overpayments are recovered by the respective programs.  We attribute
the untimely identification and reporting of credit balances to provider personnel
not being aware of the Medicaid and Medicare reporting requirement and provider
policies and procedures not being in accordance with federal and state credit
balance reporting requirements.